2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www .cocklelegalbriefs.com

No. 20JOHN YEARWOOD; WILLIAMSON COUNTY, TEXAS,
Petitioners,
V.

DEPARTMENT OF INTERIOR; UNITED STATES FISH
AND WILDLIFE SERVICE; DAVID BERNHARDT,
SECRETARY, U.S. DEPARTMENT OF THE INTERIOR,
in his official capacity; MARGARETE. EVERSON, in her
official capacity as DIRECTOR OF THE U.S. FISH AND
WILDLIFE SERVICE; AMY LUEDERS, in her official
capacity as the SOUTHWEST REGIONAL DIRECTOR
OF THE U.S. FISH AND WILDLIFE SERVICE,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 26th day of October, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:

ROBERT HENNEKE
rhenneke@texaspolicy.com
THEODORE HADZI-ANTICH
tha@texaspolicy.com
CHANCE WELDON*
cweldon@texaspolicy.com
TEXAS PUBLIC POLICY FOUNDATION
901 Congress Avenue
Austin, Texas 7870 l
(512) 472-2700
Attorneys for Petitioners
*Counsel of Record

Subscribed and sworn to before me this 26th day of October, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

NERAL. NOTARY-State of Nebraska
RENEE J. GOSS
My COmm. Exp. September 5, 2023

Affiant

40190

SERVICE LIST
Varu Chilakamarri
Environment and Natural Resources Division
U.S. Department of Justice
P.O. Box 7415
Washington, D.C. 20044
(202) 353-3527
varudhini.chilakamarri@usdoj.gov
Counsel for Federal Respondents

